IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
NO. _______

RANDALL ALLEN EPLION, JR., Petitioner,
v.
UNITED STATES OF AMERICA, Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Randall Allen Eplion, Jr., asks leave to file the attached Petition
for Writ of Certiorari, without prepayment of costs, and to proceed in forma
pauperis. Pursuant to the provisions of the Criminal Justice Act, Petitioner was
previously granted leave to proceed in both the United States District Court for the
Southern District of West Virginia and the United States Court of Appeals for the
Fourth Circuit on this case.
RANDALL ALLEN EPLION, JR.
By Counsel

Jonathan D. Byrne
Appellate Counsel
Office of the Federal Public Defender
Southern District of West Virginia
Counsel for Petitioner

